WAIVER

Supreme Court of the United States

No, 21-16

Robert Paul Magtulis Cledera v. United States, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box: _-
O Iam filing this waiver on behalf of all respondents.

Tonly represent some respondents. I am filing this waiver on behalf of the following
P
respondent(s):

Ryan Holt and Waco Police Department, Waco, Texas

 

 

Please check the appropriate box:

Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

0 Iam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: SupremeJourt, Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20548).

 
 
 

Date, August 5,°2021

(type or print) Name Roy L. Barrett
[v]Mr. O Ms. O Mrs. O Miss

Firm Naman, Howell, Smith & Lee, PLLC

‘Address 400 Austin Ave, Suite 800

City & State Waco, Texas zip 16701
Phone (254) 755-4100 Emai! barrett@namanhowell.com

 

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
°* Mir. Robert Paul Magtulis Cledera
7132 Playa Norte Dr.
| Grand Prairie, Texas 75054

 
